r

r

EXHIBIT
A
/
/
/'

Case l:97-cr-0035p§WS-AJB Documeru ^

iled 10131/16

f

Page 1 of 7

EXHIBIT A—1

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
FREEMAN BERRY, JR.,
BOP Reg. # 48405-019,
Movant,

MOTION TO VACATE
28 U.S.C. §2255
CRIMINAL ACTION NO.
1:97-CR-359-RWS-AJB-2

v.

UNITED STATES OF AMERICA,
Respondent.

CIVIL ACTION NO.
1:16-CV-3868-RWS-A JB

UNITED STATES MAGISTRATE JUDGE’S ORDER
AND FINAL REPORT AND RECOMMENDATION

4.-

Movant, Freeman Berry, Jr., confined in the Oakdale I Federal Correctional
Institution in Oakdale, Louisiana, has submitted a motion under 28 U.S.C. § 2255 to
vacate, set aside, or correct his sentence in criminal action number 1:97-cr-359-RWSAJB-2.

[Doc. 232.]1

Movant has also submitted a motion to appoint counsel.

[Doc. 234.] The matter is before the Court for preliminary review pursuant to Rule 4(b)
of the Rules Governing Section 2255 Proceedings. For the reasons discussed below,

i

Citations to the record in this Order and Final Report and
Recommendation refer to case number l:97-cr-359-RWS-AJB-2. Throughout his
§ 2255 filings, Movant incorrectly lists his criminal case number as “l:97-cr-397.”
[Doc. 232 at 1,4; Doc. 234 at 1-6.] The;©ovemment-also-.incQrreetlv:printed^5ff97-cF
^Sp^^^^S^^fcagr'eemeitsfDoiPJB^l at 2.] iThe’defendant’in'criminalaase
,humbePOI97Q;m97?MHM^CKMeS10^BlPkefstaffihM>Movant: JiowCveryMovanf s
nam^and-signatnfrappc^^fFthS^GHillyiPlealaidtPlSS^ApeeM^tTr[DoeM76 at2, 4.]

AO 72A
(Rev.8/8

Case l:97-cr-0035^RWS-AJB

Documt...

led 1^31/16 Page 2 of 7

EXHIBIT A—1

the undersigned RECOMMENDS that the § 2255 motion be DISMISSED as
untimely. In addition, the undersigned ORDERS that the motion to appoint counsel
is DENIED.
I.

Background
In 1997, Movant was charged, in relevant part, with the following offenses:

(1) conspiracy to commit mail fraud, in violation of 18 U.S.C. § 1341; and (2) using fire
or an explosive during the commission of a felony, in violation of 18 U.S.C. § 844(h).
[Doc. 232 at 1.] On January 22,

1 AAA

iyyy.

Movant pleaded guilty to those charges.

[Doc. 176.] On June 10, 1999, Movant was sentenced to 171 months imprisonment,
followed by three years supervised release. [Doc. 204.] Movant’s sentence was
consecutive to any state sentence that he was serving. [Id.] Movant filed a notice of
appeal on June 15, 1999. [Doc. 206.] The United States Court of Appeals for the
Eleventh Circuit granted Movant’s motion to dismiss the appeal on December 28,1999.
[Doc. 207.]2
Movant filed a § 2255 motion on June 5, 2006. [Doc. 218.] The District
Court, Carnes, J., granted Movant’s motion to withdraw the § 2255 motion on
September 11,2006. [Doc. 225.] Because that § 2255 motion was not resolved on the
merits, the present § 2255 motion is not second or successive pursuant to
28 U.S.C. § 2244(b). [See Docs. 230, 231 (Orders of Eleventh Circuit denying as
unnecessary Movant’s applications for leave to file second or successive § 2255
motion).]
2

AO 72A
(Rev.8/8

Case l:97-cr-0035gsFWS-AJB Document 235 Filed 1^31/16 Page 3 of 7

EXHIBIT A—1

In his § 2255 motion, executed on October 10,2016, Movant claims that (1) the
plea agreement “[binds him] to an indictment that does not exist,” (2) his counsel
provided ineffective assistance in advising him to plead guilty, and (3) his plea was not
knowing, intelligent, or voluntary. [Doc. 232 at 4-8, 13; Doc. 234 at 1.]
II.

Discussion
Summary dismissal of a § 2255 motion is proper “[i]f it plainly appears from the

motion, any attached exhibits, and the record of prior proceedings that the moving party
is not entitled to relief....” Rule 4(b), Rules Governing Section 2255 Proceedings for
the United States District Courts. A § 2255 motion is subject to the one-year statute of
limitations provided by 28 U.S.C. § 2255(f). The one-year period runs from the latest
of the dates on which (1) Movant’s convictions became final; (2) a Government
impediment to making the § 2255 motion was removed; (3) a right that Movant asserts
was initially recognized by the United States Supreme Court, if the right has been
newly recognized and made retroactively applicable to cases on collateral review; or
(4) Movant, with due diligence, could have discovered the facts supporting his claims.
See 28 U.S.C. § 2255(f)(l)-(4).
Under § 2255(f)(1), “[t]he Eleventh Circuit has not addressed the issue of the
date a conviction becomes final when a direct appeal is voluntarily dismissed.” Adair
3

AO 72A
(Rev.8/8

Case l:97-cr-0035^RWS-AJB Doc .uent 235 Filed ip/31/16 Page 4 of 7

EXHIBIT A—1

v.

Tucker,

No.

5:12-cv-346-MP-GRJ,

2014

WL

2805227,

at

*2

(N.D. Fla. June 20, 2014). The first option is the date on which the appeal is
voluntarily dismissed, while the second option is ninety days thereafter, upon the
expiration of the period to seek certiorari in the United States Supreme Court. Id. In
the present case, even if the second option is followed, the one-year statute of
limitations expired for Movant no later than March 27, 2001. Movant executed his
§ 2255 motion more than fifteen and one-half years late, on October 10, 2016.
Movant-has not presented anything to (1) suggest the applicability of'the
circumstances set forth in § 2255(f)(2)-(4), (2) justify equitable tolling,3 or
(3) demonstrate actual innocence.4 Therefore, the District Court should dismiss the

“Equitable tolling is appropriate when a [movant] untimely files because
of extraordinary circumstances that are both beyond his control and unavoidable even
with diligence.” Sandvikv. United States, 177F.3d 1269, 1271 (llthCir. 1999) (per
curiam).
“Actual innocence is not itself a substantive claim, but rather serves only
to lift the procedural bar caused by [a movant’s] failure timely to file [a] § 2255
motion.” UnitedStates v. Montano, 398 F.3d 1276,1284 (11th Cir. 2005) (per curiam).
To demonstrate actual innocence, a movant must “support his allegations of
constitutional error with new reliable evidence . . . that was not presented at trial.”
Schlup v. Delo, 513 U.S. 298, 324 (1995). A movant “must show that it is more likely
than not that no reasonable juror would have convicted him in the light of the new
evidence.” Id. at 327.
4

AO 72A
(Rev.8/8

Case l:97-cr-0035^RWS-AJB Document 235 Filed 1^/31/16 Page 5 of 7

EXHIBIT A—1

§ 2255 motion as untimely.5
As a result of the undersigned’s recommendation that this matter be dismissed,
Movant’s motion to appoint counsel, [Doc. 234], is accordingly due to be denied.
HI.

Certificate of Appealability ICOAI
Pursuant to Rule 11(a) of the Rules Governing Section 2255 Proceedings, “[t]he

district court must issue or deny a certificate of appealability when it enters a final order
adverse to the applicant. ... If the court issues a certificate, the court must state the
specific issue or issues that satisfy the showing reauired bv 28 TT.S C S

”

Section 2253(c)(2) states that a certificate of appealability may issue “only if the
applicant has made a substantial showing of the denial of a constitutional right.” A
substantial showing of the denial of a constitutional right “includes showing that

The opportunity to object to this Final Report and Recommendation
provides Movant with a fair opportunity to present any matter that requires a different
disposition of the matter. See,Day v. McDonough, 547 U.S. 198, 209-10 (2006)
(holding “that district courts are permitted, but not obliged, to consider, sua sponte, the
timeliness of a state prisoner’s habeas petition,” but noting that “before acting on its
own initiative, a court must accord the parties fair notice and an opportunity to present
their positions”); Taylor v. United States, 518 Fed. Appx. 348, 349
(6th Cir. Mar. 22, 2013) (“The district court properly denied Taylor’s section 2255
motion on timeliness grounds because the court may sua sponte dismiss a motion as
barred by the applicable one-year statute of limitations.”) (citing Day, id.); see also Gay
v. United States, 816 F.2d 614, 616 n.l (11th Cir. 1987) (“[T]he principles developed
in habeas cases also apply to Section 2255 motions.”) (citation omitted).
5
AO 72A
(Rev.8/8

Case l:97-cr-00359^RWS-AJB Doctin^

235 Filed 1Q/^1/16 Page 6 of 7

(

(

EXHIBIT A—1

reasonable jurists could debate whether (or, for that matter, agree that) the [§ 2255
motion] should have been resolved in a different manner or that the issues presented
were adequate to deserve encouragement to proceed further.” Slack v. McDaniel,
529 U.S. 473, 484 (2000) (internal quotation marks omitted).
When the district court denies a [§ 2255 motion] on procedural
grounds without reaching the prisoner’s underlying constitutional claim
... a certificate of appealability should issue only when the prisoner
shows both that jurists of reason would find it debatable whether the
[motion] states a valid claim of the denial of a constitutional right and that
jurists of reason would find it debatable whether the district court was
correct in its procedural ruling.
Jimenez v. Quarterman, 555 U.S. 113, 118 n.3 (2009) (citing Slack, 529 U.S. at 484)
(internal quotation marks omitted).
A COA should be denied because it is not debatable that the § 2255 motion is
untimely. If the District Court adopts this recommendation and denies a COA, Movant
is advised that he “may not appeal the denial but may seek a certificate from the court
of appeals under Federal Rule! of Appellate Procedure 22.”

Rule 11(a), Rules

Governing Section 2255 Proceedings for the United States District Courts.
IV.

Conclusion
For the reasons stated above,
IT IS ORDERED that Movant’s motion to appoint counsel, [Doc. 234], is
6

AO 72A
(Rev.8/8

Case l:97-cr-0035p^RWS-AJB Docui,

10(31/16 Page 7 of 7
(

EXHIBIT A—1

DENIED.
IT IS RECOMMENDED that:

(1) the § 2255 motion, [Doc. 232], be

DISMISSED as untimely; (2) a COA be DENIED; and (3) civil action number 1:16cv-3868-RWS-AJB be DISMISSED.
The Clerk is DIRECTED to terminate the referral of the § 2255 motion to the
undersigned Magistrate Judge.
IT IS SO ORDERED, RECOMMENDED, and DIRECTED, this 31st day f
of October, 2016,

/

ALAN J. BAVERMAN
UNITED STATES MAGISTRATE JUDGE ?

7

AO 72A
(Rev.8/8

.

—

r

r
EXHIBIT A-2

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
FREEMAN BERRY, JR.,
CRIMINAL ACTION NO.
1:97-CR-359-RWS-AJB-2

Movant,
v.

CIVIL ACTION NO.
l::16-CV-3868-RWS

UNITED STATES OF AMERICA,
Respondent.
ORDER

This case is before the Court on Movarit’s 28 U.S.C. § 2255 motion to vacate
[232], the Final Report and Recommendation (“R&R”) of Magistrate Judge Alan J.
Baverman [235], and Movant’s Objections [237].
The Court must “make a de novo determination of those portions of the [R&R]
to which objection is made” and “may accept, reject, or modify, in whole or in part,
the [R&R].” 28TJ.S. n § 636(b)(1)(C). Portions of the R&R to which no objection
is made are reviewed only for clear error. Macort y, Prem, Inc,, 208 F. App’x 781,,
784 (11th Cir. 2006) (per curiam).
Judge Baverman recommended that Movant’s § 2255 motion be dismissed as
untimely. [Doc. 235 at 7]. As Judge Baverman correctly explained, the one-year
statute of limitations in 28 U.S.C. § 2255(f)(1) expired no later than March 27,2001,

AO 72A
(Rev.8/82)

V^ctbt! 1.3 / -ui -UUOD3-K WD-ttJD

uuuuiiitMii ^oo

rneu ux/x^/j./

rctye ^ ui o

f
EXHIBIT A—2

and Movant executed his § 2255 motion more than fifteen and one-haif years late, on
October 10,2016. [Id. at 3-4]. Movant failed to (1) argue in favor of the applicability
of the one-year statute of limitations in § 2255(f)(2)-(4), (2) show that equitable
tolling is justified, or (3) demonstrate actual innocence. [Id. at 4].
In his Objections, Movant complains that the Gov eminent printed an incorrect
case number on his plea agreement in 1999. [Doc. 237 at 1-7]. Despite that error,
Movant’ s name and signature appear on his plea agreement, as Judge Baverman noted.
[Doc. 235 at 1 h.l]. The Government’s use of an incorrect case number in 1999 did
not occur within one year before October 10,2016, when Movant executed his § 2255
motion. Therefore, Movant fails to show that his § 2255 motion is timely pursuant to
§ 2255(f). Movant also fails to establish that equitable tolling is warranted or that he
is actually innocent.
Based on the foregoing, Movant’s Objections [237] are OVERRULED; Judge
Baverman’s R&R [235] is ADOPTED as the Opinion and Order of the Court;
Movant’s § 2255 motion [232] is DISMISSED as untimely; and a Certificate of
Appealability is DENIED. The Clerk is DIRECTED to CLOSE civil action number
l:16-cv-3868-RWS.

2

AO 72A
(Rev.8/82)

.

Case l:97-cr-00359-RWS-AJB Document 238 Filed 01/12/17 Page 3 of 3

EXHIBIT A—2

SO ORDERED, this 12th day of January, 2017.

SchardwTSTORY
United States District Judg

{i

li

3

AO 72A
(Rev.8/82)

FILED
U.S. COURT OF APPEALS
ELEVENTH CIRCUIT

MAY 2 5 2017
David J. Smith
Clerk

EXHIBIT A-3

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. I7-10345-G

FREEMAN BERRY,
Petitioner-Appellant,

3 STATES OF AMERICA,
Respondent-Appellee.

• Appeal from the United States District Court
for the Northern District of Georgia

ORDER:
To merit a certificate of appealability, Freeman Berry must show that reasonable jurists
would find debatable both (1) the merits of an underlying claim, and (2) the procedural issues w
that he seeks to raise. See 28 U.S.C. § 2253(c)(2); Slack v. McDaniel, 529 U.S. 473, 478 (2000).
Because he has failed to make the requisite showing, his motion for a certificate of appealability
is DENIED.

l

His remaining motions are DENIED AS MOOT.

/s/ Gerald B, Tjoflat
UNITED STATES CIRCUIT JUDGE

;

jl

Case l:97-cr-0035<TRWS-AJB

r

Document 252

Filed 1U14/17

r

Page 1 of 2

EXHIBIT A-$ 4 )

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
FREEMAN BERRY, JR.,
CRIMINAL ACTION NO.
L.97-CR-359-RWS-AJB-2

Movant,
v.

CIVIL ACTION NO.
1:16-CV-3868-RWS

UNITED STATES OF AMERICA,
Respondent.
ORDER

This case is before the Court on Movant’s Motion to Vacate Void Judgment
Under Rule 60(b)(4) [249], “Judicial Notice” and Motion for Hearing [250], and
Amended Motion to Void Judgment Pursuant to Rule 60(b)(4) [251].
On January 12, 2017, the Court issued its Order [238] dismissing Movant’s 28
U.S.C. § 2255 Motion to Vacate [232] as untimely and denying a Certificate of
Appealability. On May 25, 2017, the United States Court of Appeals for the Eleventh
Circuit denied Movant’s Motion for Certificate of Appealability [248].
Pursuant to Federal Rule of Civil Procedure 60(b)(4), Movant argues that he is
entitled to relief from the final judgment in this case because it is void. “Generally,
a judgment is void under Rule 60(b)(4) if the court that rendered it lacked jurisdiction
of the subject matter, or of the parties, or if it acted in a manner inconsistent with due

72A
;Rev.8/82)

Case l:97-cr-00359;RWS-AJB bucurnent 252

r

Filed 1J/14/17

Page 2 of 2

EXHIBIT A—4

process of law.” Burke v. Smith. 252 F.3d 1260, 1263 (11th Cir. 2001) (citation and
internal quotation marks omitted).
Movant fails to show that the Court lacked jurisdiction or violated his due
process rights. Movant points out, as he did previously, that the Government printed
an incorrect case number on his plea agreement in 1999. [Doc. 249 at 1-6; Doc. 250
at 1; Doc. 251 at 1-3], AsAhesGourbpreviously^gxplainedfthe-Giivernrnentisaerror
d©psfnoPchffli^Sfl^^M7fhaPMdVaf#^ifarne#'andESignatufe!:'app#ari;on:.his,q)[ea
|agfi®ff!eht;,fpDoc. 238 at 2]. The Government’s error also did not occur within one
year before Movant executed his Motion to Vacate in 2016. [Id.]. Accordingly, the
Court properly rendered final judgment that the Motion to Vacate is untimely.
Based on the foregoing, Movant’s Motion to Vacate Void Judgment Under Rule
\

60(b)(4) [249], “Judicial Notice” and Motion for Hearing [250], and Amended Motion
to Void Judgment Pursuant to Rule 60(b)(4) [251] are DENIED.
SO ORDERED, this /¥^av of November, 2017.

RICHARD W. STORY .
United States District Judge

2

AO 72A
(Rev.8/82)

Case l:97-cr-0oLd-RWS-AJB Document 261

Filed 01., y3/18 Page"! of 2

EXHIBIT A-5

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
FREEMAN BERRY, JR.,
CRIMINAL ACTION NO.
1:97-CR-359-RWS-AJB-2

Movant,
v.

UNITED STATES OF AMERICA,

1

CIVIL ACTION NO.
L16-CV-3868-RWS

Respondent.
ORDER
This case is before the Court on Movant’s Motion for Certificate * of
Appealability [255] and Motion for Leave to Appeal in Forma Pauperis [259]. On
November 14,2017, the Court issued its Order [252] denying Movant’s MotionsTor
Relief Pursuant to Federal Rule of Civil Procedure 60(b)(4) [249, 250, 251]. On
December 1, 2017, Movant filed a Notice of Appeal [254],
A Certificate of Appealability is required to proceed on appeal following the
denial of a Rule 60(b) Motion in a § 2255 action: See Gonzalez v. Sec’y for Dep’t of
Corn., 366 F.3d 1253, 1263-67 (11th Cir. 2004) (en banc).

A Certificate of

Appealability may issue “only if the applicant has made a substantial showing of the
denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). A substantial showing of the
denial of a constitutional right “includes showing that reasonable jurists could debate

AO 72A
(Rev.8/82)

/
Case l:97-cr-00oo^-RWS-AJB

r

Document 261 Filed 0-l,J3/18 Page 2 of 2

EXHIBIT A-5

whether (or, for that matter, agree that) the [Rule 60(b) Motion] should have been
resolved in a different manner or that the issues presented were adequate to deserve
encouragement to proceed further.” Slack v. McDaniel, 529 U.S. 473, 484 (2000)
(internal quotation marks omitted).
Because the resolution of Movant’s Rule 60(b) Motions is not debatable,
Movant’s Motion for Certificate of Appealability is due to be denied. Therefore,
Movant’s Motion for Leave to Appeal in Forma Pauperis is due to be denied as moot.
Any further requests by Movant for a Certificate of Appealability or leave to proceed ■
in forma pauperis on appeal should be directed to the United States Court of Appeals
for the Eleventh Circuit. See Fed. R. App. P. 22(b) & 24(a)(5).
Based on the foregoing, Movant’s Motion for Certificate of Appealability [255]
is DENIED, and his Motion for Leave to Appeal in Forma Pauperis [259] is DENIED

THlRT¥^(30)^DA'AS]from^th|]d|i|^fthis:©rdeU
SO ORDERED, this 3rd day of January, 2018.

RICHARD W. STORY
United States District Judge

2

AO 72A
(Rev.8/82)

EXHIBIT A—6

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

FILED
US COURT OF APPEALS
ELEVENTH CIRCUIT

No. 17-15396-A

APR 0 9 2018
David J. Smith
Clerk

FREEMAN BERRY, JR.
Petitioner - Appellant,
versus
UNITED STATES OF AMERICA,
Respondent - Appellee.
Appeal from the United States District Court
for the Northern District of Georgia
ORDER:

Freeman Berry is a federal prisoner serving a 171 -month sentence after pleading guilty in
1999 to conspiracy to commit mail fraud, in violation of 18 U.S.C. § 1341, and using fire or an
explosive during the commission of a felony, in violation of 18 U.S.C. § 844(h). In 2016, Berry
filed a 28 U.S.C. § 2255 motion to vacate his sentence, arguing that the sentencing court had
lacked jurisdiction because his plea agreement contained the wrong indictment number. The
district court dismissed the motion as time-barred, and Berry appealed to this Court. Berry’s
motions for a certificate of appealability (“COA”) and leave to proceed on appeal in forma
pauperis (“IFP”) were denied.
Berry then filed a Rule 60(b)(4), Fed. R. Civ. P., motion in the district court, arguing that
the district court violated his due-process rights by not addressing the merits of his claim and
lacked jurisdiction over his § 2255 motion because the sentencing court lacked jurisdiction due

- -' v

EXHIBIT A-6

to the plea-agreement error. Berry also requested a hearing on his motion. The district court
denied Berry’s Rule 60(b)(4) motion without a hearing. Berry has now appealed the denial of
his motions and seeks a COA and leave to proceed on appeal IFP.
A COA is required to appeal the denial of a Rule 60(b) motion in a § 2255 proceeding.
Jackson v. Crosby, 437 F.3d 1290, 1295 (11th Cir. 2006). In order to obtain a COA, a movant
must make “a substantial showing of the denial of a constitutional right

28 U.S.C.

§ 2253(c)(2). The movant satisfies this requirement by demonstrating that “reasonable jurists
would find the district court’s assessment of the constitutional claims debatable or wrong,” or
that the issues “deserve encouragement to proceed further.” Slack v. McDaniel, 529 U.S. 473,
484 (2000) (quotations omitted).
In this case, reasonable jurists would not debate the denial of Berry’s Rule 60(b)(4)
motion. A Rule 60(b)(4) motion, the denial of which is reviewed de novo, allows a party to seek
relief or reopen his case if the judgment is void, which he can show by demonstrating that the
court that rendered the judgment lacked jurisdiction, or acted in a manner inconsistent with, due
process of law. Fed. R. Civ. P. 60(b)(4); Burke v. Smith, 252 F.3d 1260, 1263 (11th Cir. 2001).
In his motion. Berrv sin-iplv reiterated his previous, unsuccessful arguments that the sentencing
court lacked jurisdiction because of. an error in the plea agreement, and argued that his due
process righto were violated because the merits of his claims were not addressed. Berry did not
show that the district court lacked jurisdiction over his § 2255 motion. Moreover, due process
does not guarantee a merits analysis of a procedurallv barred claim. Accordingly, Berry did not
show that relief under Rule 60(b)(4) was warranted. See Burke, 252 F.3d at 1263. Furthermore,
the district court did not abuse its discretion in deciding not to conduct a hearing on B-SSy’s
Rule 60(b)(4) motion because all of the pertinent information necessary to analyze Berry’s

2

EXHIBIT A—6

motion was present on its face. See Cano v. Baker, 435 F.3d 1337, 1342-43 (11th Cir. 2006)
(holding that a district court does not abuse its discretion in denying an evidentiary hearing for a
Rule 60(b) motion when a hearing would have served no purpose in aiding the court’s analysis of
the questions presented). Because Berry has not shown the denial of a constitutional right, his
motion for a COA is DENIED. His motion for leave to proceed on appeal IFP is DENIED AS
MOOT.
/s/ Robin S. Rosenbaum
UNITED STATES CIRCUIT JUDGE

3

r

r
GUILTY PLEA AGREEMENT

EXHIBIT
B

y
y.

ORIGIN/'1

EXHIBIT B

GUILTY PLEA and PLEA AGREEMENT

United States Attorney
Northern District of Georgia

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION

CRIMINAL NO. lr»7-CR-397/SI

FREEMAN.. BERRY, defendant, having received a copy of the above-numbered indictment,
hereby pleads GUILTY to Count(s) One and Eight thereof. The defendant, his counsel, and
counsel for the United States, subject to approval by the Court, have agreed upon a negotiated plea
in this case, the terms of which are as follows:
1.

The government agrees to dismiss the remaining counts in the indictment upon sentencing

of the defendant.

2.

,

Understanding that 18 U.S.C. § 3742 provides for appeal by a defendant of his sentence

under certain circumstances, the defendant expressly waives any and all rights conferred by 18
U.S.C. § 3742 to appeal his sentence. Defendant further expressly waives the right to appeal his
sentence on any other ground and waives the right to attack his sentence in any post-conviction
proceeding.
Notwithstanding the above, the defendant reserves the right to file a direct appeal of an
upward departure from the applicable Guidelines range which the sentencing court specifies at the
time of sentencing as having been imposed pursuant to either USSG § 4A1.3 (from criminal
history) or § 5K2.0 (from offense level). The defendant understands and agrees that his waiver
as to all other Guidelines findings would still be in force and effect notwithstanding the
appealability of an upward departure.
Further, the parties agree that nothing in this agreement shall affect the Government's right
and/or duty to appeal as set forth in 18 U.S.C. § 3742(b): However, if the United States appeals
the defendant's sentence pursuant to 18 U.S.C. § 3742(b), defendant is released from his waiver.

/ 7(7

EXHIBIT B

3.

The Government re?

_es the right to make all facts known ar

o make recommendations

as to specific characteristics and adjustments listed in the Sentencing Guidelines but shall make
no specific recommendation as to the sentence to be imposed within the appropriate Guideline
range. Further, the Government reserves the right to respond to any questions from the Court and
to any misstatements of fact. The Government also reserves the right to fully inform the Court
and the United States Probation Office of all the facts and circumstances surrounding the entire
case. The Government further reserves the right to contest and appeal any or all of the following:
1) an incorrect finding of fact; 2) an incorrect application of the Sentencing Guidelines; 3) a
sentencing departure; 4) a collateral attack on the conviction; and 5) a collateral attack on the
sentence.

4.

• The defendant understands and agrees that the properties listed below are subject to

forfeiture; further, the defendant agrees that all properties listed in the civil forfeiture case which
were not listed in the indictment are subject to forfeiture as well. The defendant agrees to forfeit
to the United States voluntarily and immediately each of said properties, and consents to the entry
of a preliminary order of forfeiture divesting him of all right, title and interest in said properties.
The defendant agrees to execute all documents necessary to effectuate this agreement and the
transfer of the listed properties to the United States:
(a)

Real Property located at 1691 and 1713 Charles Avenue, Jonesboro, Clayton

County, Georgia, and ah buildings and appurtenances thereon, more particularly described in the
warranty deed to the property recorded in Clayton County Plat Book number 2129, page 015;
(b)

One Ford Econoline Van, VIN Number 1FDEE14HXTHA36504; and

(c)

Any and all funds in Suntrust Checking Account Number 8812285404; such items

being the funds deposited and property purchased from said funds deposited by the defendants as
a result of the transactions, and constituting property involved in such offense and any property'
traceable thereto, as alleged in Counts Twenty-One and Twenty-Two of this Indictment.

5.

The defendant understands and agrees that the recommendations of the Government

incorporated within the terms of this plea agreement are not binding on the District court and that
the District Court's failure to accept one or more of the recommendations does not constitute
grounds for withdrawal of the guilty plea or to claim a breach of this plea agreement.
6.

The defendant acknowledges and agrees to pay at sentencing a special assessment in the

amount of $200. This amount is payable by cash, cashier's check, or U.S. Postal Money Order

2

EXHIBIT B

to the United States District Court Clerk.
In Open Court this 2- 7- day of January. 1998.

^4
SIGNATURE (Defendant)
FREEMAN BERRY

- SIGNATURE (Attorney for Defendarr
DON SAMUEL

SIGNATURE (Assistant U.sSkttomey)
KATHERINE B. MONAHAN
9,
2.

SI GNATURE^Approving Official)
GENTRY SHELNUTT

A / /- £
DATE
INFORMATION BELOW MUST BE TYPED OR PRINTED

DON SAMUEL
NAME (Attorney for Defendant)

FREEMAN BERRY
NAME (Defendant)

MAPLE DR WE
STREET

C/O TTSM
STREET

ATLANTA. GA 30305
CITY & STATE ZIP CODE

CITY & STATE

PHONE NUMBER 404/262-2225

PHONE NUMBER

STATE BAR OF GEORGIA NUMBER
Filed in Open Court

0

JrBy

X A

/
!

7
3

ZIP CODE

*
l.

i

r
INDICTMENT STATUS (1-97-CR-397(S)

EXHIBIT

c

'•f;

(v

EXHIBIT C

n£

&
£3
★

&
★
ft*
"J*

&

&

S^A'strict

65

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
U. S. Courthouse, Suite 2211
75 Ted Turner Drive SW
Atlanta, GA 30303-3361
JAMES N. HATTEN
District Court Executive/
Clerk of Court

Intake Section
(404)215-1635

August 26, 2016
Mr. Freeman Berry
#48405-019
Oakdale Federal Correction
P.O.Box 5000
Oakdale, LA 71463

Re:

Status of Indictment for case l:97-cr-397-l MHS

Dear Mr. Berry:
With respect to your letter received in our office on August 18, 2016 requesting an
Indictment in the above reference case. There is no Indictment for this case it was waived.
If additional assistance is required, please do not hesitate to contact us.

James N, Hatten
District Court Executive/
Clerk of Court
By:
Deputy Clerk
swb/

